       DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




June 16, 2011

TO:             Francis S. Collins, M.D., Ph.D.
                Director
                National Institutes of Health


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Superfund Financial Activities at the National Institute of Environmental Health
                Sciences—Fiscal Year 2010 (A-04-11-01099)


This final report provides the results of our audit of Superfund financial activities at the National
Institute of Environmental Health Sciences (NIEHS) for fiscal year (FY) 2010. We conducted
the audit to comply with provisions of the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980 (CERCLA), which requires the Inspector General of a
Federal organization with Superfund responsibilities to audit all uses of the Superfund.

BACKGROUND

NIEHS, located in Research Triangle Park, North Carolina, is 1 of 27 institutes and centers of the
National Institutes of Health (NIH), which is a component of the Department of Health
& Human Services. NIH provides NIEHS with direction and other administrative and
professional services.

The CERCLA mandated the establishment of the Hazardous Substance Response Trust Fund,
which is commonly known as the Superfund. The CERCLA was extended and amended by the
Superfund Amendments and Reauthorization Act of 1986. The Superfund is used to respond to
emergency environmental conditions that are hazardous to health and to pay for the removal of
toxic substances.

NIEHS receives funding to carry out functions mandated by the CERCLA. In carrying out its
Superfund responsibilities for FY 2010, NIEHS obligated approximately 5 percent of these funds
for administrative costs and awarded the remaining 95 percent to other organizations to:

   •    train persons who are engaged in handling hazardous waste and managing facilities
        where hazardous waste is located and
Page 2 – Francis S. Collins, M.D., Ph.D.


    •   conduct research, including using advanced techniques, methods, and technologies to
        detect, assess, and evaluate the effects of hazardous substances on human health and to
        reduce the amount and toxicity of those substances.

To carry out responsibilities under the CERCLA, NIEHS entered into agreements with
universities, unions, other organizations, and another Federal agency. From October 1, 2009,
through September 30, 2010 (FY 2010), NIEHS obligated approximately $79.2 million and
disbursed approximately $79.7 million in Superfund resources. Of the $79.7 million in
disbursements, $6.9 million was related to FY 2010 funds. The remaining $72.8 million was
related to prior periods.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NIEHS administered its Superfund appropriations
during FY 2010 in accordance with applicable laws and regulations.

Scope

The scope of our audit included all obligations and disbursements related to FYs 2005 through
2010 Superfund appropriations made during the period October 1, 2009, through September 30,
2010. 1 We did not audit disbursements by grantees; these awards are subject to independent
audits under 45 CFR § 74.26.

We performed fieldwork at NIEHS in Research Triangle Park, North Carolina, in March 2011.

Methodology

To accomplish our audit objective, we:

    •    reviewed applicable laws and regulations regarding Superfund appropriations;

    •   determined the accuracy and completeness of the listing NIEHS provided of all
        Superfund financial transactions recorded from October 1, 2009, through September 30,
        2010, by tracing NIH accounting records to the listing;

    •   determined whether grant awards were properly recorded by tracing approximately
        $74.1 million in obligations to 55 research and training grant award documents;

    •   determined whether the interagency agreement was properly recorded by tracing
        approximately $1.5 million in obligations to an interagency agreement document;


1
 Because annual appropriations may be disbursed up to 5 years beyond the appropriation year, our scope included
obligations and disbursements of FY 2005 through FY 2009 appropriations, as well as those of FY 2010.
Page 3 – Francis S. Collins, M.D., Ph.D.


    •   determined whether grantees had submitted current audits in accordance with Office of
        Management and Budget Circular A-133 and, if so, whether the audit reports contained
        any significant findings related to the Superfund by requesting and analyzing report data;

    •   performed a limited review of NIEHS monitoring activities for 60 grantees who received
        grant awards during FY 2009 or prior years 2 by:

            o determining whether grantees had submitted timely financial and performance
              reports in accordance with grant terms and conditions and

            o conducting interviews with NIEHS grants management staff to determine what
              other grant monitoring activities occurred during the audit period;

    •   reviewed NIEHS’s internal controls to obtain an understanding of controls over funding
        authority, financial reporting, and grants;

    •   limited testing of administrative disbursements to comparing disbursements recorded
        during FY 2010 with disbursements recorded during the previous FY because of the
        small amount of administrative costs associated with Superfund relative to the overall
        funding NIEHS received; and.

    •   reviewed the FY 2009 Superfund audit report (A-04-10-01076) and determined that the
        report contained no findings requiring followup.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

RESULTS OF AUDIT

During FY 2010, NIEHS administered its annual Superfund appropriations in accordance with
applicable laws and regulations.

                                                  *****

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.




2
 We selected grantees from FY 2009 and prior years because financial and performance reports for FY 2010 awards
were not yet due at the time of our fieldwork.
Page 4 – Francis S. Collins, M.D., Ph.D.


As this report contains no recommendations, no response is necessary. However, if you have any
questions or comments about this report, please do not hesitate to contact me at (202) 619-1175 or
through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-11-01099.
